OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
           TECHNOLOGY PROGRAM GRANT
                  AWARDED TO
      THE SAN ANTONIO POLICE DEPARTMENT
               SAN ANTONIO, TEXAS



             U.S. Department of Justice
           Office of the Inspector General
                    Audit Division



         Audit Report Number GR-80-10-003
                      May 2010
  OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
             TECHNOLOGY PROGRAM GRANT
                    AWARDED TO
        THE SAN ANTONIO POLICE DEPARTMENT
                 SAN ANTONIO, TEXAS

                              EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program Grant Number 2007-CK-WX-0055 in the amount of
$6,000,000 awarded to the city of San Antonio Police Department (SAPD).
The award requires grantees to provide a 25 percent cash match. 1 The
purpose of the grant program is to support the development of integrated
voice and data communication networks among emergency response
agencies within the region served by the grant recipients. Grants will pay
for equipment, enhancements to voice and data network infrastructures, and
project management expenses.

      Since 1995, COPS has awarded more than $405 million to support the
development of voice and data sharing communication networks. COPS
offers grantees ongoing technical assistance resources throughout the
development and implementation phases of their projects. COPS is
responsible for advancing community policing nationwide and supporting
state, local, and tribal law enforcement agencies.

      The city of San Antonio, which is in Bexar County, has a population of
over 1.3 million and is the seventh largest city in the United States. San
Antonio receives over 1.5 million 9-1-1 calls annually. The largest public
safety agencies in the area include the San Antonio Police and Fire
Departments and the Bexar County Sheriff’s Office.

      The purposes of this audit were to determine whether reimbursements
claimed for costs under the grant were supported and allowable in
accordance with applicable laws, regulations, guidelines, terms, and
conditions of the grant; and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget

       1
         An additional $13 million has been identified locally, including $2 million in matching
funds. The total cost of the entire project is estimated at $19 million.


                                               2
management and control; (5) matching funds; (6) property management;
(7) program income; (8) Financial Status and Progress Reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of subgrantees and contractors. We determined that
indirect costs, program income, and subgrantees were not applicable to this
grant.

     As shown in Exhibit 1, the SAPD was awarded a total of $6,000,000 to
implement the grant program.

  EXHIBIT 1. COPS TECHNOLOGY PROGRAM GRANT TO THE SAPD
                           AWARD       AWARD
       GRANT AWARD                                 AWARD AMOUNT
                         START DATE   END DATE
   2007-CK-WX-0055                  09/01/07         08/31/10    $6,000,000
  Source: Office of Community Oriented Policing Services

      We examined the SAPD’s accounting records, required grant reports,
and operating policies and procedures. As a result of the audit, we found
the following:

      •      Requisitions and approvals for purchasing technology equipment
             were conducted by the same employee.

      •      Expenses were misclassified among budget categories.

      •      A Senior Management Analyst hired with grant funds was not
             functioning within the approved budget description. On
             March 11, 2010, the COPS Office accepted the SAPD’s
             modification to the job description cited in the original budget;
             therefore, we consider this issue to be closed.

      •      Required Categorical Progress Reports were not submitted in a
             timely manner.

      •      SAPD will not satisfactorily achieve its goals by the end of the
             award period, August 31, 2010.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                           3
